<html>
<title> - EUROPE AND EURASIA: ENSURING RESOURCES MATCH OBJECTIVES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


        EUROPE AND EURASIA: ENSURING RESOURCES MATCH OBJECTIVES

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2018

                               __________

                           Serial No. 115-165

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov,
                      or http://www.gpo.gov/fdsys/

                                 ______
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
32-307PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2443544b64475157504c4148540a474b490a">[email&#160;protected]</a>                                  
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania<greek-l>   TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
TED POE, Texas                       BRAD SHERMAN, California
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
F. JAMES SENSENBRENNER, Jr.,         WILLIAM R. KEATING, Massachusetts
    Wisconsin                        DAVID N. CICILLINE, Rhode Island
FRANCIS ROONEY, Florida              ROBIN L. KELLY, Illinois
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Janine Wynne, Acting Coordinator, Office of the Coordinator 
  of U.S. Assistance to Europe and Eurasia, U.S. Department of 
  State..........................................................     5
Ms. Emilia Puma, Acting Deputy Assistant Secretary, Bureau of 
  South and Central Asian Affairs, U.S. Department of State......    12
The Honorable Brock Bierman, Assistant Administrator, Bureau for 
  Europe and Eurasia, U.S. Agency for International Development..    18
Ms. Ann Marie Yastishock, Deputy Assistant Administrator, Bureau 
  for Asia, U.S. Agency for International Development............    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Janine Wynne: Prepared statement.............................     8
Ms. Emilia Puma: Prepared statement..............................    14
The Honorable Brock Bierman: Prepared statement..................    21
Ms. Ann Marie Yastishock: Prepared statement.....................    28

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49

 
        EUROPE AND EURASIA: ENSURING RESOURCES MATCH OBJECTIVES

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2018

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. All right.
    For decades it's been the policy of the United States to 
see the countries of Europe and Eurasia increase their liberty. 
That's been our goal--to find security from hostile foreign 
coercion and to grow into their economic prosperity.
    To achieve this, we have deployed men and women in uniform. 
We have deployed our tax dollars abroad into these areas for 
decades and we were resolved that a more secure and peaceful 
Europe would be increased and that they would increase our own 
security here at home in the United States.
    This afternoon's hearing is to examine the path that has 
been laid out by President Trump, Secretary of State Pompeo, 
and Administrator Green for U.S. policy toward Europe, Eurasia, 
and Central Asia--what are our aims and goals and what are the 
aims and goals that we have as a country in that region, that 
is, and what advantage we can leverage and what part of the 
burden from what we do in that area can be borne by our allies 
themselves and how are the resources our Government has been 
putting in to that region--how does it match up to the 
achievements that we have been having in that region.
    Earlier this year when the administration unveiled the 
first fiscal year 2019 budget proposal, the international 
affairs portion amounted to, roughly, $42 billion. That was a 
sizeable top line decrease and contained major reductions for 
assistance programs and activities inside the region that this 
subcommittee oversees.
    Now, before we get into this any further, I know some of my 
colleagues will point out that the international affairs 
portion of the budget is relatively small, implying that waste 
or unneeded spending must also be small if we have a small 
budget.
    Well, I totally reject that notion. Our Government and, 
hence, the American people are over $1 trillion--that's $21 
trillion--in debt. Every dollar that we vote to spend places 
even a heavier burden on either the taxpayers today or our 
children, who will eventually pay the bill.
    We need to ensure that they are getting every ounce of 
value that is in any budget that we propose.
    From our witnesses today I look forward to learning about 
the programming in their areas of responsibility and how much 
of those efforts cost and how much they cost, and how they are 
furthering the President's agenda and his stated vision to 
build a stabler partner in the states there and the region and 
to counter radical Islamic terrorism in Europe and Eurasia.
    I want to thank our witnesses for appearing today and all 
members will have 5 days to submit material for the record.
    And we will be introducing the witnesses in a moment and 
what I am going to do is ask you to keep your testimony down to 
about 5 minutes. Anything else you want to put in the record 
will be in the record, and then we will go to one question and 
answer period once we are all done with your testimony.
    So I will now yield to my ranking member, Mr. Meeks, for 
his opening remarks. After that, I will introduce our witnesses 
and ask them, as I say, to summarize their testimony.
    Mr. Sherman. Are there other members of the subcommittee 
making----
    Mr. Rohrabacher. If there is a request, the answer is yes.
    Mr. Sherman. Okay.
    Mr. Rohrabacher. Okay. Okay. Got it. If we could--Mr. 
Meeks, being the ranking member, go ahead--5 minutes. If I 
could ask my other colleagues to make it about 2 minutes. Is 
that okay? Okay. Thank you very much.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman, for calling this 
hearing because the U.S.-Europe-Eurasia relationship remains an 
important part of global stability in light of efforts by 
Russia to interfere in our democracies.
    The Trump administration has proposed a total fiscal year 
2019 budget request for Europe and Eurasia that is at $424.2 
million--a decline of 63 percent from actual funding for 2017. 
The funding at that time was $1.1 billion.
    I am concerned about this and want to get an understanding 
from our witnesses today about how this aligns and how it 
impacts U.S. interests.
    The proposed budget calls into question whether or not the 
State Department will be adequately resourced in Europe and 
Central Asia at a time when there is an acute need to support 
our allies and advance U.S. priorities.
    The Trump administration's fiscal year 2019 budget leads us 
to question the ability of USAID and the State Department to 
execute their missions in the face of the Russia malign 
influence and the draconian cuts proposed by the President of 
the United States.
    Enshrined both within--within both the USAID and the State 
Department's mission statements is a commitment to promote 
democratic values abroad, advance a free, peaceful, and 
prosperous world, foster conditions for stability and progress 
for the benefit of the American people and people everywhere.
    And yet, we hear that some USAID missions in Europe are 
closing completely and resources are being diverted away from 
the USAID and the State Department.
    Instead, those resources are headed one place--to the 
Pentagon. Not back to the American people, not going to make a 
difference with reference to the debt, but going to the 
Pentagon.
    So, in short--because my time is short--and I won't quote 
all of the decorated American generals who time and time again 
say a weakened diplomatic corps directly undermines our 
national security.
    I can't understand how the American people are served by a 
diminished diplomatic community. What I see here plainly by 
examining this budget is a mishmash of priorities and lack of 
strategy to support our interests and needs.
    Today, some leaders in Europe are leaning toward 
authoritarianism and are not safeguarding the democratic 
principles the EU and NATO were founded upon.
    We see tactics like cracking down on free speech, attacking 
the media, shutting down opposition and weakening of 
judiciaries.
    In Poland, we see the backsliding of strong democratic 
institutions with actions that undermine the pillars of 
democracy. I've spoken out, for example, about the termination 
of judges based on their failure to agree with the ruling 
party.
    We know of the disciplining of judges for not ruling 
against the ruling party, independent media censored and placed 
in the hands of state affiliates, raids of NGOs and terminated 
funding based on whether the government disapproves of the 
community served by the NGO.
    With regards to Hungary, on September 12th the European 
Union--European Parliament voted to censor Hungary and 
lawmakers denounced Viktor Orban's government as a systemic 
threat to the rule of law.
    This underscores that we must work with our allies to 
bolster, not undercut, the very values that provide the basis 
for the United States' partnerships with local governments and 
their institutions.
    We have seen the Kremlin's aggressive efforts to 
destabilize semi-consolidated democracies and transitional 
governments like Ukraine, Georgia, Montenegro, Serbia, 
Bulgaria, and Hungary.
    Consolidated democracies are not isolated from the same 
Kremlin aggressions. Baltic and Nordic states, the Netherlands, 
United Kingdom, France, Germany, Spain, Italy are all 
contending with Russia's anti-democratic efforts.
    I do not understand how the administration's proposed 
budget addresses our shared security objectives and prosperity.
    And I hope to hear from our witnesses today how this budget 
addresses our challenges and prepares us for our challenges of 
tomorrow.
    I'll close with just that I just had lunch with several 
former prime ministers in the Eastern Europe. All very 
concerned--all allies, strong allies of ours--all who, you 
know, even paid their 2 percent to NATO--seriously concerned 
about what's taking place in regards to this budget and so I'd 
love to hear from you in that regard.
    And I yield back.
    Mr. Rohrabacher. Mr. Sherman.
    Mr. Sherman. I want to associate myself with Mr. Meeks' 
comments about how we need to be spending an adequate amount 
and more than is put forward in the President's budget on 
foreign aid in general and the region we are here to discuss.
    One of the many reasons--advantages of spending money on 
foreign aid is we can then go to European countries and push 
them to do more, pointing out that the United States bears the 
great burden of world national security--that when in the 
region we are here to talk about there was mass atrocities in 
Kosovo and Bosnia, the United States did a--the lion's share of 
the national security and military effort to safe people from 
ethnic cleansing and, some would say, genocide.
    And so I'll want to know from our witnesses what is being 
done by the State Department to push Europe to do more. This is 
especially clear because we are asking Europe to do more in 
Europe.
    So the right comparison is not between what we do in Europe 
and what Europe does in Europe, but what we do in Europe versus 
what we do in the Americas and what Europe does in Europe, and 
I don't think that Europe does very much to deal with the great 
problems of Guatemala, El Salvador, Honduras, and the 
Caribbean.
    I'll also be asking our witnesses about the Caucuses, 
particularly the newly renamed Republic of Artsakh, what 
efforts you can make to get Treasury to focus on a tax treaty 
for Armenia, and while it's outside the purview of this 
subcommittee I will sneak in a question for Ms. Puma about 
Sindh and Pakistan because I know that that is in your area, 
and my colleagues will forgive me for asking a question on 
that.
    I yield back.
    Mr. Rohrabacher. Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chairman, for holding this 
hearing today on foreign assistance budget requests for Europe, 
Eurasia, and Central Asia.
    I was disappointed to see the President's request of 
foreign assistance for this region represent a 28 percent 
decrease from the fiscal year 2018 funding levels.
    Countries like Ukraine and Georgia, which have experienced 
direct conflict with Russia are subject to substantial cuts. 
Georgia, in particular, will be subject to a 25 percent cut in 
funding.
    These cuts are not a return to average. They would fall far 
below the average of the past 10 years.
    Many countries in Europe and Central Asia are at pivotal 
moments to either open their governments to democracy or 
retreat into autocratic tendencies.
    The United States should not step back from engaging and 
pushing countries to adopt open markets and good government 
practices. Now is the time to invest in the long-term benefits 
of a stable and prosperous Europe and Central Asia.
    Thank you to the witnesses today on their work in Europe 
and Central Asia, and I want to thank you all for your hard 
work that you bring--that you bring positive change to the 
region.
    I yield back.
    Mr. Rohrabacher. And thank you to our members who have 
shown up. This is a discussion and not just testimony and not 
just back and forth. We are going to have--and we appreciate we 
have some great witnesses to help us lead this discussion.
    Brock Bierman is the Assistant Administrator for USAID's 
Bureau for Europe and Eurasia. Before coming to his current 
position, Mr. Bierman served in multiple capacities with FEMA 
and USAID and the Department of Interior and in the private 
sector as well.
    And Janine Wynne is the Acting Coordinator for the Office 
of Assistance Coordination for Europe--there you are, okay--for 
Europe, Eurasia, and Central Asia. Ms. Wynne is also the 
Director of the Office of Policy and Global Issues inside the 
Bureau of European and Eurasian Affairs. She is a senior civil 
servant with a long track record within the executive branch.
    And then we have Ann Marie Yastishock--I mispronounce it 
every time--there you go, but that's okay. My name is 
Rohrabacher and everybody mispronounces that. So and she's a 
career member of the senior Foreign Service and currently 
serves as Deputy Assistant Administrator for Asia within USAID. 
And prior to joining the Asia Bureau, she served as the Deputy 
Mission Director of the regional USAID office covering Ukraine, 
Moldova, Belarus, and Cyprus.
    And Emilia Puma--there you are--is the Acting Deputy 
Assistant Secretary of State for the Bureau of South and 
Central Asia. She is also a career member of the senior Foreign 
Policy Service.
    Since joining the State Department in 1991 she has held a 
wide range of posts including assignments in Spain, Kosovo, and 
Italy, among others.
    So we have some real pros with us today and I want to thank 
you for sharing your experience with us and your judgment, and 
if you could do that, as I say, for 5 minutes, that'll be 
helpful and then we will have a discussion--a dialogue.
    Ms. Wynne, you may proceed.

 STATEMENT OF MS. JANINE WYNNE, ACTING COORDINATOR, OFFICE OF 
THE COORDINATOR OF U.S. ASSISTANCE TO EUROPE AND EURASIA, U.S. 
                      DEPARTMENT OF STATE

    Ms. Wynne. Thank you, Chairman Rohrabacher, Ranking Member 
Meeks, and members of the subcommittee for the opportunity to 
testify today on the President's fiscal year 2019 budget 
request for Europe and Eurasia.
    I deeply appreciate your interest, commitment, and strong 
bipartisan support for our region and the work we are doing to 
protect our national interests. I would ask that you please 
submit my written testimony for the record.
    As reflected in the President's national security strategy, 
the principal goal of U.S. engagement with Europe is to 
preserve the West as a community of nations united by shared 
sacrifice and a commitment to common defense, democratic 
values, fair trade, and shared interests.
    While making America more prosperous and secure is work 
that starts at home, preserving the West cannot happen without 
our allies and partners in Europe. A strong and free Europe is 
vital to American interests.
    The President's fiscal year 2019 foreign assistance request 
of $424.2 million for Europe and Eurasia supports the 
President's priority of enhancing the safety and security of 
the American people, which includes advancing our vision of a 
Europe that is strong and free.
    To this end, we will pursue six main goals.
    First, we will strive to strengthen the Western Alliance 
and compete effectively for positive influence by working with 
our NATO allies to ensure that the alliance is ready and 
willing to defend itself.
    Second, we will strengthen and balance the trans-Atlantic 
trade and investment relationship between the United States and 
Europe.
    The President's fiscal year 2019 foreign assistance request 
supports this goal, with over $117 million in economic growth 
assistance. With these funds, we will establish a level playing 
field that allows American companies to compete and create jobs 
and strengthen the energy security of our European allies and 
partners.
    Third, we must secure the eastern frontier of Europe where 
Russia and others increasingly seek to sow and exploit 
division, destabilize Europe and weaken Western cohesion.
    Our foreign assistance request reflects these priorities, 
with over $252 million going toward supporting the front line 
states of Ukraine, Georgia, and Moldova, where Russia's 
aggression and pressure are the greatest, and nearly $78 
million to support stability in the Western Balkans and advance 
their Western integration.
    Ukraine is engaged in an internal struggle to implement a 
broad range of economic, anti-corruption, judicial, and 
governance reforms, even as it faces continued Russian 
aggression and pressure.
    Our fiscal year 2019 foreign assistance request of $204 
million for Ukraine is a tangible sign of our steadfast resolve 
to stand with the Ukrainians and their democratic aspirations.
    While the government has put in place many considerable 
reforms over the last 4 years, it still has much to do, 
including implementing anti-corruption laws, adjusting gas 
tariffs, and reducing budget deficits in line with IMF 
requirements, and ensuring upcoming elections are free and 
fair.
    We remain committed to Ukraine's territorial integrity, and 
since 2014, we have provided over $1 billion in training and 
equipment to Ukraine to help it defend its sovereignty and 
territorial integrity, to better monitor and secure its 
borders, and to deploy its forces more safely and effectively.
    Our fiscal year 2019 request continues to support these 
aims including $20 million in foreign military financing 
assistance.
    In Georgia, we have a steadfast partner whose efforts to 
reform are one of the good news stories in a tough 
neighborhood. Our fiscal year 2019 assistance request of just 
over $31 million will continue to help Georgia counter Russian 
aggression by diversifying its economy and fostering a business 
environment that is grounded in rule of law and friendly to 
American businesses.
    Our continuing support to our Western Balkans partners 
prioritizes advancing the normalization of Kosovo-Serbia 
relations and their integration into the Western community of 
nations.
    We will continue to facilitate political reform and 
reconciliation in Bosnia and Herzegovina and work with Greece 
and Macedonia to implement the Prespa agreement, resolving the 
name dispute, and so unblock the path to Macedonia's euro-
Atlantic integration.
    And we will keep working with partners to enhance the 
region's capabilities, to fight organized crime, corruption, 
and terrorism.
    Finally, securing Europe's eastern frontier also means 
supporting the democratic aspirations of the people of Armenia 
including preserving their freedom to choose further 
integration with the West.
    Our fourth strategic goal is to work with allies, the EU, 
and partners to stabilize the southern frontier where recent 
migration flows have sent ripples through the heart of Europe, 
even as Russian competition in the eastern Med is increasing.
    Fifth, we will uphold Western democratic principles and 
institutions, which are key to our security and prosperity. In 
line with this goal, our fiscal year 2019 foreign assistance 
requests includes over $150 million to support democracy and 
governance reforms in the region.
    Finally, our success in achieving all of these goals will 
depend heavily on maintaining the confidence of the American 
people who have entrusted the Department of State and USAID 
with their taxpayer dollars in support of our national security 
objectives.
    Thank you.
    [The prepared statement of Ms. Wynne follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Ms. Puma.

     STATEMENT OF MS. EMILIA PUMA, ACTING DEPUTY ASSISTANT 
  SECRETARY, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Puma. Chairman Rohrabacher, Ranking Member Meeks, and 
members of the subcommittee, thank you for inviting me to 
appear today to discuss the administration's fiscal year 2019 
budget request for Central Asia.
    I have submitted prepared remarks for the record as well. 
Today my testimony will cover our request for Kazakhstan, 
Uzbekistan, Tajikistan, the Kyrgyz Republic, and Turkmenistan.
    I want to begin by extending my heartfelt sympathies to the 
families of the two American citizens killed in Tajikistan in a 
senseless terrorism act last July. We stand with those families 
and are working closely with Tajik authorities in the ongoing 
investigation. Both victims were brave individuals who 
represented the best of America.
    The administration recognizes the critical role Central 
Asia plays in the world economy and political system. 
Neighboring Russia, China, Iran, and Afghanistan, these five 
proud nations have sought to maintain their sovereignty by 
navigating a quickly changing political landscape.
    Central Asia is experiencing a period of profound 
transformation. Depressed petroleum prices have increased the 
demand to diversify their economies. We continue to dedicate 
resources to building the region's hydropower potential, 
linking surplus hydropower resources in Tajikistan and the 
Kyrgyz Republic with the energy-hungry markets of Afghanistan 
and Pakistan.
    Political transitions are also underway. We are encouraged 
by the bold reforms championed by the President of Uzbekistan 
in economic development, rule of law, and human rights.
    Through his leadership, Uzbekistan is pursuing a neighbors-
first strategy, seeking to put an end to decades-old border 
disputes.
    We appreciate Uzbekistan's desire to support an Afghan-led 
and Afghan-owned negotiation to bring the war to a close and we 
continue to explore ways to work with Uzbekistan to help them 
achieve these goals.
    For fiscal year 2019, the department request $66.3 million 
for Central Asia. This includes $15.5 million for Tajikistan, 
the country in greatest need of development assistance, 
bordering Afghanistan and China.
    Assistance increases stability and economic growth, 
supports food security, and combats the spread of multi-drug-
resistant tuberculosis. This also includes $10.6 million for 
Uzbekistan in support of their reform agenda including justice 
sector reforms, sustainable employment, and economic reforms. 
Assistance will, likewise, combat transnational crime including 
narcotics and trafficking in persons.
    For the Kyrgyz Republic, the administration requests $10.5 
million to accelerate their economic growth. Assistance will 
also promote stability, regional security, civil society, human 
rights, and the rule of law.
    For Kazakhstan and Turkmenistan, the administration 
requests $1.7 million and $.4 million, respectively, to support 
their export controls and related border security as well as 
military-to-military training.
    Finally, the administration requests $27.5 million in 
regional funding for Central Asia to support efforts in 
economic connectivity, democracy in governance, stability and 
security, and to counter violent extremism.
    Funding would also address the spread of HIV/AIDS and 
support the organization for security and cooperation in 
Europe.
    Central Asia is a vital element of our South Asia strategy 
and our efforts to create a peaceful, stable, and prosperous 
Afghanistan.
    But Central Asia itself is a welcoming culturally-rich land 
of enormous economic potential. We welcome the subcommittee's 
review of our fiscal year 2019 budget request and look forward 
to working together to support this region.
    Thank you.
    [The prepared statement of Ms. Puma follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you for your testimony.
    Mr. Bierman.

      STATEMENT OF THE HONORABLE BROCK BIERMAN, ASSISTANT 
 ADMINISTRATOR, BUREAU FOR EUROPE AND EURASIA, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Bierman. Chairman Rohrabacher and Ranking Member Meeks, 
on behalf of the U.S. Agency for International Development, I 
would like to take this opportunity to thank you to be able to 
testify today and I would ask that my written remarks be 
included for the record.
    I would like to start off by paraphrasing the great 
observer of democracy, Alexis de Tocqueville, who noted that 
true friends of liberty must remain constantly vigilant and 
ready.
    As I will outline in my remarks, USAID remains vigilant and 
ready to assist our partners in Europe and Eurasia. Before I 
got into more detail, I would like to highlight three points 
from my confirmation hearing last November.
    First, I spoke about the challenges of countering Kremlin 
malign influence, and I will speak about that later.
    Second, I committed to focusing on youth programs and how 
we will build the next generation of leaders in our region. 
This commitment is coming to fruition through our European 
Democracy Youth Network, now known as EDYN.
    Democracy demands a commitment from every generation to 
public service and their willingness to enter into dialogue 
with those who hold opposing views.
    The EDYN program will build a network of youth leadership 
across the region that will do exactly that.
    And third, I committed to strengthening communications with 
Congress, and over the last several months we have had high-
level engagements including conversations with both you and 
your staff, and I look forward to continuing this effort and 
deepening our relationship.
    Mr. Chairman, over the past two and a half decades, the 
countries of E&E have made incredible strides. Half of our 
region partner countries have graduated from USAID assistance 
and joined institutions such as NATO and the European Union. 
They are all now close allies and key trading partners of the 
United States.
    USAID is proud of the role and its profound transformation 
in this process. In response to the progress, the Kremlin is 
stepping up efforts to undermine the gains and, for example, 
let me just give you a couple of examples.
    Frustrated farmers in northern Azerbaijan have personally 
told me that Russia frequently manipulates and restricts water 
supplies, and in July, Russia prevented truckloads of fresh 
apricots from crossing the border, wiping out farmers' entire 
livelihoods. And last year, Russian cyber attacks in Ukraine 
infected 60 countries worldwide, causing billions of dollars of 
damage.
    Thus, while this budget is fiscally conservative, USAID 
stands vigilant and ready to achieve our U.S. foreign policy 
objectives by helping these countries consolidate democratic 
progress, increase their economic--and increasing their 
economic integration to the West.
    And so now let me cover the region. Ukraine continues to 
struggle with numerous fundamental challenges, particularly in 
the intense political, economic, and military pressure from 
Russia.
    Our assistance helps Ukraine to resist these pressures on 
its chosen path toward prosperity, democracy, and closer ties 
with the West.
    In particular, we continue to focus on reducing corruption, 
fostering much-needed decentralization, and spurring economic 
community development in conflicted areas in eastern Ukraine.
    Now, turning to Georgia, the request supports U.S. foreign 
policy objectives within the country by resisting malign 
Kremlin influence, further consolidating democratic and 
economic gains and enhancing energy security.
    Specifically, we are building on gains of increasing 
dynamic economy by promoting competitiveness and export 
potential and at the same time we are strengthening civil 
society to enhance rule of law by supporting a fourth wave of 
judicial reform.
    Now, moving on to Moldova, the request will support 
independent media, strengthening democratic institutions, and 
build more competitive economy integrating into Europe and 
diversify its energy supply.
    I must also note of the recent mayoral election in Chisinau 
which was unfairly annulled, and it's a warning sign of 
backsliding in the region. Thus, we will be carefully watching 
Moldova's democratic process before and after the parliamentary 
elections in February.
    Turning to the Western Balkans, USAID programs address the 
challenging and fragile institutions, weak growth, and rule of 
law, endemic corruption, and limited media freedoms in addition 
to responding to the issues of violent extremism, and increased 
Russian influence in the region.
    Next, I would just like to note two hopeful cases. In just 
a few days Macedonia will vote on a referendum which will clear 
the way for progress in the NATO and the EU. USAID is working 
with the state election commission to ensure integrity of this 
referendum.
    In Armenia, thanks to democratic breakthroughs, this past 
spring when citizens peacefully gathered to demand political 
change, the new government appears committed to reforms and 
USAID will harness this momentum in Armenia by encouraging this 
civic engagement of newly mobilized citizens and providing 
targeted assistance to the government and civil society 
organizations.
    Next, I want to also note some changes taking place at 
USAID and how they will benefit the region. The agency's new 
transformation initiative titled ``Journey to Self-Reliance'' 
will create conditions for partner countries to lead, finance, 
and implement their own development agendas.
    Key aspects include fostering democratic resources--key 
democratic resource base to sustain development, and expanding 
engagement in collaborative design with private sector.
    Mr. Chairman, before concluding, I would like to take this 
opportunity to tell you a bit about our countering Kremlin 
influence development framework. This framework will guide our 
programming to help countries withstand the Kremlin's 
interference.
    Priorities include strengthening democratic institutions, 
the rule of law, expanding independent media, combatting 
corruption, increasing energy security, diversifying the 
economic sector, and advancing integration with the West.
    And finally, by noting that although the countries in the 
region boast many development achievements and successes, much 
remains to be done. Many of those successes, while impressive, 
are partial and subject to reversal.
    This budget request ensures USAID's vigilance and readiness 
to build a more democratic and prosperous Europe and Eurasia.
    Thank you, Mr. Chairman. I appreciate it and I look forward 
to your questions.
    [The prepared statement of Mr. Bierman follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    And, now, I am going to see if I can pronounce your name 
now. Let's see, Ann Marie Yastishock. That's as good as I am 
going to----[laughter].
    All right. Well, thank you very much. I mispronounce her 
name every time she comes. She always has the best testimony. 
So it's good.
    You may proceed.

    STATEMENT OF MS. ANN MARIE YASTISHOCK, DEPUTY ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Yastishock. Thank you very much.
    Mr. Chairman, Ranking Member Meeks, and Representative 
Sherman, thank you for inviting me to testify on USAID's role 
in advancing U.S. foreign policy priorities in Central Asia. I 
ask that my testimony also be included for the record.
    USAID's fiscal year 2019 request of $48.3 million supports 
our bilateral efforts in Uzbekistan, Tajikistan, and the Kyrgyz 
Republic, as well as for the Central Asia regional programs 
covering all five countries.
    With fiscal year 2019 funds, USAID will strengthen 
democratic institutions, focusing on improving governance, 
amplifying the voice of civil society, advancing rule of law, 
and supporting the independence of media.
    In economic governance, USAID will create a legal enabling 
environment for competitiveness, enhance trade facilitation, 
and promote responsible infrastructure development including 
transforming the energy sector while encouraging U.S. private 
sector investment.
    Enhanced energy and trade within Central Asia promotes 
greater integration and reduces these countries' dependence on 
Russia and China.
    USAID's programs are a critical component of the 
administration's South Asia strategy by advancing regional 
stability, promoting partnerships between South and Central 
Asia, particularly Afghanistan, and supporting the sovereignty 
and regional connectivity of the Central Asian countries.
    Accordingly, we will prioritize building local capacity in 
Central Asia, engaging the private sector in the growth 
process, and helping partner countries mobilize domestic and 
international resources to fund their own development agendas, 
which will move them forward on their journey to self-reliance.
    In Uzbekistan, USAID is leveraging strategic openings, 
working to strengthen civil society and rule of law, expand 
trade and energy cooperation, and strengthen health outcomes.
    For example, by digitizing the case management in civil 
courts nationwide, USAID has helped the Uzbek courts cut the 
average length of cases in half.
    Earlier this year, USAID and Uzbekistan signed four MOUs to 
enhance our cooperation in rule of law, trade, energy, and to 
assist the country accede to the World Trade Organization.
    With 2019 resources, USAID will help Uzbekistan open its 
economy, fight corruption, and improve the business climate for 
U.S. companies.
    U.S. technology and products introduced over the last 2 
years have resulted in Uzbek companies purchasing everything 
from John Deere tractors to 600,000 walnut saplings from 
California nurseries.
    In health, USAID assistance helped reduce tuberculosis 
incidence in the country by 44 percent from 2001 to 2016, and 
helped decrease TB mortality by almost 80 percent in the same 
time period.
    In the Kyrgyz Republic, USAID will use 2019 resources to 
boost private sector competitiveness and build on our 
successful efforts in health and education.
    USAID is also working to strengthen the financial 
sustainability of local media outlets. In education, we've 
improved the reading skills of 65 percent of public school 
primary students and at the government's request have expanded 
our reading interventions to every public primary school in the 
country.
    In Tajikistan, USAID will use the 2019 resources to 
continue to foster inclusive development and reduce 
malnutrition. New technologies introduced by USAID have 
quadrupled high-value fruit and vegetable production and 
sourced about 50 crop varieties from California. These efforts 
have helped reduce stunting from 31 percent to 18 percent over 
the last 5 years.
    In health, the first patients treated with a new U.S. drug 
are completely cured of multi-drug-resistant tuberculosis where 
once the disease was virtually fatal.
    Lastly, USAID will use 2019 resources to engage and bring 
together the five Central Asian countries including through the 
U.S.-sponsored C5+1 initiative to promote cooperation in trade, 
energy, and water as well as to improve conditions for labor 
migrants, reducing their vulnerability to radicalization.
    Our budget request will also enable USAID to help establish 
a market-based Central Asia regional electricity market.
    Mr. Chairman, thank you for your support of USAID's 
programs in Central Asia. Investing in Central Asia's 
development remains in our national interest.
    With our fiscal year 2019 budget request, we are committed 
to making the most out of every taxpayer dollar to ensure that 
our partner countries move forward on their journeys to self-
reliance and we achieve the objectives of the South Asia 
strategy.
    Thank you.
    [The prepared statement of Ms. Yastishock follows:]
    
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
                              ----------                              

    Mr. Rohrabacher. Well, thank you very much. Thank you to 
all the witnesses for their testimony and I am going to let Mr. 
Meeks lead off with the questions today.
    And Mr. Meeks, you may proceed.
    Mr. Meeks. That means he wants to do something else behind 
me.
    No, I am kidding. [Laughter.]
    Thank you for your testimony, and I think that it's 
tremendously important on what you have indicated.
    And so I would ask each and every one of you, you all agree 
that the work that you do, whether it's USAID, whether it's the 
State Department, is tremendously important for the people of 
the United States of America.
    Is that correct? Everybody.
    And it's been helpful. I mean, we have seen meaningful 
results as a result of the diplomatic work that you do on the 
ground on a continuous basis.
    In fact, as a number of generals have indicated in the 
past, it may have even saved lives, in the long run. Would you 
all concur to that?
    Now, my concern is, because I think that in the past when I 
look at the severe cuts that are going to take place here, you 
know, at the level that they are, I don't think, unless you 
can--you tell me otherwise, that either the State Department or 
USAID, running the programs that you have ran, just was 
foolishly spending money and not looking at it and trying to 
evaluate the programs with which you were in charge of, and 
working very closely with some of our allies in some of the 
countries in Europe and Eurasia and counteracting other 
countries who may try--who may not have the same--the same 
rules and values that we have. Is that also correct?
    Yeah? Okay. So then with this proposed budget, if it was to 
be enacted--I will start--what adjustments would USAID--let's 
start with that, Mr. Bierman--have to make in order to sustain 
the current efforts so that we can continue to do what you're 
doing, with the draconian cuts, you know? That we see 28 
percent overall and we see how certain countries in the East 
are being cut, you know, some--you know, 63 percent. What do 
you do?
    Mr. Bierman. Thank you very much, Congressman, and I 
appreciate the opportunity to answer your question. I also 
would just state, quickly, that we will remain available to 
answer questions after this through the QFRs and also to meet 
with you personally to go over every single one of your 
questions that we might not have time for today.
    Over the last 8 months, I have made a high priority of 
coming up to Congress and meeting with members and their staffs 
to answer these very important questions.
    But let me just say that I think that the President's 
request does give us the resources we need to accomplish our 
goals. I would also suggest to you that we've been very 
strategic in our efforts and we've been very focused, putting 
together a strategic framework in terms of countering Kremlin 
influence, and we are specifically going after those areas that 
are of most need with both of our host countries and also the 
region.
    Finally, I would also suggest to you that we are working 
with our European counterparts to be more collaborative and 
strategic in our work. We are working with the private sector 
in terms of bringing more resources to the table and we are 
also working--and I think this is important--with diaspora.
    I have made it a personal priority to make sure that I meet 
with diaspora and I talk to them about how we can bring 
additional resources to the table to help solve some of the 
issues that we are facing.
    And, finally, I just wanted to let you know that in Europe 
and Eurasia we are not closing any missions. We are looking at 
a country office in Albania where we are looking at the 
relationship as it currently stands.
    But there is no plans right now to close any of our 
missions or country offices and we will be happy to work with 
Congress to--as we--consult with Congress as we reassess our 
host countries' path to their self-reliance.
    Mr. Meeks. So let me just ask this then, because what I am 
trying to make sure that maybe then we don't need to make the 
errors of the past. Are you saying to me that this money that 
you had previously you were over funded in the past?
    Mr. Bierman. I would say that we are utilizing the 
resources from Congress in a very strategic and positive 
manner.
    Mr. Meeks. Right. So you're just doing what you have to do 
because that's all the money you're going to get if this budget 
is enacted. Is that correct?
    Mr. Bierman. I think we are being much more strategic in 
our focus and we are also being more effective----
    Mr. Meeks. So then we should have been more strategic in 
the past. We didn't need to give you--didn't need to give the 
money. Because I want to make sure we don't do that. If you 
didn't need the money before and, you know, and we are just 
going to accept that the budget is--the budget is--will get cut 
and there's no advocacy, because in the past when I was in 
these hearings, no matter who the President was, whether it was 
Obama or Bush, the urge was to fight for as many--as much 
dollars to create and have the kind of programs that are 
necessary on the ground which would benefit the interests of 
the American people.
    Now, if I am hearing now that there has been a concrete 
examination of the funds that was received in the past within 
the agency--and I know I am putting you on the spot so I am not 
going to let you--I am not going to--I am not going to do that 
to you. I am not even going to ask you to answer the question. 
Okay. I am not going to ask you to answer the question.
    But I just want you to know that I appreciate very much the 
work that USAID has been doing on behalf of the American people 
and I think that in your statement, you know, you indicated 
that there has been progress.
    But there are several countries that are still under the 
threat of Russia influence and some of that is increasing. Is 
that correct? It hasn't decreased. It's still there.
    Mr. Bierman. No, it is creating a clear choice between 
authoritarianism and open democracy.
    Mr. Meeks. And Ms. Yastishock, the State Department, it's 
the same issue--I mean, the same questions. I mean, the work 
that you do is valuable to the American people and make a 
difference on the ground to people--to the American citizens.
    So they've been getting--because when I look at what our 
foreign aid is over our overall budget, it's less than 1 
percent.
    So the American people have been getting a good value out 
of their dollar investing in our State Department and USAID and 
the regions that we are talking about now, whether it's Europe 
or Central Asia. The American people haven't been shortchanged 
by the money that we've been giving to the State Department, 
have they?
    Ms. Yastishock. I am with USAID so I will defer----
    Mr. Meeks. USAID. Okay. I am sorry.
    Ms. Yastishock [continuing]. To my State colleague.
    Mr. Meeks. Who's here from the State Department? Ms. Wynne 
and Ms. Puma. I am sorry.
    Ms. Wynne. I will answer the question first. Thank you, 
Ranking Member Meeks.
    First, before I answer the question, I want to say thank 
you to the Members of Congress for the generous support that 
you have provided both the career members of the service and 
the department and USAID in supporting the foreign policy 
objectives for our region.
    I guess I would answer your question in the following way. 
We recognize that as we sit here we understand that the budget 
resources to support our foreign policy objectives are just one 
part of the greater whole and that you have a very tough job in 
balancing the priorities for our foreign policy objectives 
against domestic policy objectives and the very real deficits 
that face us.
    So the President's request for fiscal year 2019 is a 
request of fiscal restraint. Within that request--and I think 
this is what Brock was trying to get at--is that we are trying 
to be very strategic within this request.
    We are trying to be very responsible in making sure that 
the resources that we have are being put toward our highest 
priorities and for us, within the State Department and USAID, 
for Europe and Eurasia, that priority is focussing on those 
states that are on the front lines of Russian aggression--
Ukraine, Georgia, and Moldova, where there are Russian boots on 
the ground--and also more vulnerable areas in the Western 
Balkans, which are also susceptible to malign influence.
    Within that, we are also being strategic about the types of 
assistance and engagement and interventions that we are using 
so that we are focussing on those levers and influences that 
are our biggest challenge.
    First and foremost, supporting our partners and allies in 
strengthening their cyberdefenses, especially as it relates to 
their election systems; supporting local efforts to counter 
disinformation, which serves to discredit our democracies and 
sow division within the West; focussing on the fight against 
corruption, which really is the door to malign influence from 
Russia but also increasingly from China; and finally, 
supporting our European partners as they strengthen their 
energy security.
    Again, with the resources that we have, we want to be 
strategic.
    Mr. Meeks. One thing that I know--I've gone over my time--
but so what will you now not focus on?
    Ms. Wynne. So we are focusing--what we are not focussing on 
are those areas----
    Mr. Meeks. Right, these--go ahead.
    Ms. Wynne. Thank you. So we'll not be focussing on those 
areas that don't align with those goals. So, again, 
prioritizing where the threat is the greatest in those areas 
where the vulnerabilities are greatest and, finally, working in 
partnership with our European donors and even with the private 
sector to make sure that we are leveraging as much of the 
outside resources as we can to address these threats.
    Mr. Meeks. Right. I will just close with saying that I know 
that if you're reprioritizing there's something that you have 
got to leave out and I--from, you know, prior testimony under 
various administrations, you know, they talk about the work 
that they did. All of it was substantial. And now you have to 
make choices and so a lot of things have to be left out.
    And when I see where these dollars are going, it's not like 
the dollars are going into a savings account. The dollars are 
going into the military. That's where it's going.
    And so it just seems to me then we are reshifting 
completely from the diplomatic side or cutting the diplomatic 
side into just the military side, causing a imbalance that we 
once were trying to fix, because from the generals that I've 
talked to they say we need both, and any--I mean, one general--
the favourite quote: The cuts that we take away from diplomacy 
we got to add it for bullets.
    And that's just my point. I yield back.
    Mr. Rohrabacher. Well, thank you, Mr. Meeks.
    I have a few questions of my own. But let me note that we 
are spending $833 billion more this year than we are taking in.
    So every cent we spend overseas is being paid for by our 
grandchildren----
    Mr. Meeks. You passed a tax cut.
    Mr. Rohrabacher. The tax cut--is that probably going to----
    Mr. Meeks. A lot of money there.
    Mr. Rohrabacher [continuing]. May end up with actually more 
revenue because the level of economic activity here will be 
increased, as----
    Mr. Meeks. I am sorry.
    Mr. Rohrabacher. It's okay.
    Let me just note that that type of deficit spending has to 
be dealt with in some way and one way will be to increase the 
productivity of our economy.
    The other way will have to be trying to make sure that we 
have a greater sense of responsibility in every dollar that's 
being spent, especially outside of our country, especially for, 
hopefully, the benefit of other countries. That is a mutual 
benefit to us.
    I understand your argument that helping other people is a 
benefit to us and would create stability, et cetera. But should 
we actually be financing--well, first of all, let me ask about 
the crops in Ukraine.
    Who was it who mentioned that we have doubled certain crops 
in Ukraine? Was it you, Mr. Bierman, or----
    Ms. Yastishock. I thought it was Tajikistan, doubling the 
fruit crops.
    Mr. Rohrabacher. All right. Yeah, I--could you go into that 
detail a little bit for that? What crops were doubled and how 
did we do that? And----
    Ms. Yastishock. Actually, I believe it is in Uzbekistan 
where we have been working----
    Mr. Rohrabacher. Yes, that's Uzbekistan.
    Ms. Yastishock. Uzbekistan. We've been working with the 
private sector as well as the local farmers on increasing the 
horticulture.
    Mr. Rohrabacher. How did--how did we do that?
    Ms. Yastishock. Through a contract and through a 
contractor, and then we actually helped with leveraging private 
sector investment to connect them to California to bring in the 
walnut saplings.
    Mr. Rohrabacher. So was--did we send--was it an American 
company we contracted with to go there and help their farmers 
produce more of their product? Is that what happened?
    Ms. Yastishock. We did. We brought in American experts and 
farmers to be able to increase the yields and the horticulture 
sector.
    Mr. Rohrabacher. Do you know what crops those were?
    Ms. Yastishock. They were walnut saplings from the United 
States.
    Mr. Rohrabacher. Walnuts?
    Ms. Yastishock. Walnuts.
    Mr. Rohrabacher. Okay.
    Ms. Yastishock. That were brought in from California.
    Mr. Rohrabacher. All right. That's interesting. We have--
and how much did it cost us to double the walnut production in 
Uzbekistan?
    Ms. Yastishock. That's a number I would have to get back to 
you on, Mr. Chairman. I am not exactly sure.
    Mr. Rohrabacher. I certainly don't expect you to have that 
off the top of your head. But if you could get back to me that 
would be very nice.
    Ms. Yastishock. Sure.
    Mr. Rohrabacher. I guess what we need to know is every time 
we have an expenditure, whether it's to increase the walnuts in 
Uzbekistan or whatever it is, we need to now show in the age 
that we are in exactly how this is going to have an impact--
positive impact on the United States because we are borrowing 
that money from our grandchildren, and that--of course 
Uzbekistan is a vitally important country.
    There's no doubt about it. If--I think one of the most 
important things that we have to deal with--one of the most 
vital things is stability of Central Asia in the sense that if 
Central Asia stays stable from the expansion of radical Islam 
the whole world will be better off, especially the Western 
world will be better off.
    If, indeed, radical Islam permeates into Central Asia, the 
instability that that creates would be incredibly damaging to 
the stability of the entire planet.
    So there is an importance there and maybe walnut production 
in Uzbekistan may be part of that. But we have to make sure 
that we can argue that case and that we know about that.
    Now, what about the money that we are spending in 
governments that are democratically elected and, like in 
Hungary, and yet we are spending certain amounts of money for 
what we call reformist groups that are involved with their 
democratic process?
    Is this something that we should--can still afford to do? I 
mean, we have already a democratically elected government and 
we go in and are supporting various people who are pushing for 
various--what we consider to be fundamental aspects of our 
society but maybe not necessarily fundamental to their culture.
    And can we still afford to do that and why should we do 
that if they already have a democratically elected government?
    Anybody want to answer that?
    Ms. Wynne.
    Ms. Wynne. Thank you, Chairman. I will try to answer that 
as best I can.
    Mr. Rohrabacher. Talk a little louder so we can all hear 
you.
    Ms. Wynne. Sorry. I will try to answer that as best I can.
    You know, we share with our NATO allies and EU member 
states, including Hungary, some enduring principles and shared 
values, and we expect our allies and partners to uphold them.
    Part of what the source of American strength is is that 
wherever we are throughout the globe we stand for fundamental 
freedoms and democratic principles.
    We'll continue to engage these governments on these issues 
both privately and publicly when necessary. We'll also look to 
engage societies in ways that we can to be helpful, to support, 
those fundamental values and principles.
    Mr. Rohrabacher. Well, if they have a democratically 
elected government, isn't it quite insulting for us to go in 
and say, here's how we define it and we expect you--I mean, the 
people have freedom of speech there, whether it's Hungary or 
these other--some other countries like Poland that have come 
under attack.
    Isn't it somewhat presumptuous of us to go in and then to 
actually take more of that--spend more of that $833 billion 
that we are spending in deficit to go in to try to help them--
push them in certain directions, even though they already have 
a democratically elected government?
    Ms. Wynne. So the second part of my answer, sir--and I 
appreciate your question--was going to refer to the importance 
of local context and that really does matter, especially if you 
look at the space in Europe right now where we are facing 
increasing competition--strategic competition from Russia and 
China.
    The manner in which we go about upholding our shared values 
and principles is important. We don't want to ease the space 
for Russian influence and Chinese influence.
    We know that Russian disinformation is purporting 
narratives that are intended to undermine our democracies. So 
the way in which we go about engaging these governments and 
supporting these efforts we want to both be effective. But we 
also don't want to be seen as inadvertently criticizing----
    Mr. Rohrabacher. Well, maybe the--maybe the people--maybe 
the people of these countries--for example, Hungary or 
elsewhere, when they see us getting involved with trying to 
push various policies and issues with the NGOs, et cetera, in 
their country, maybe they see it as the same kind of 
interference that they don't like from Russia.
    Ms. Wynne. We certainly need to be careful as we go about 
supporting these fundamental--these fundamental values--these 
fundamental principles.
    We need to be careful that our efforts aren't inadvertently 
exploited or mischaracterized as an attempt to criticise the 
democratically-elected government of a NATO ally or we are 
neither upholding our values or achieving our fundamental 
national security objectives.
    Mr. Rohrabacher. All right.
    And, you know--I will take a little extra time, too. So 
the----
    Mr. Bierman. And I--if I could just chime in, Mr. Chairman.
    Mr. Rohrabacher. Please go right ahead, Mr. Bierman. Yes.
    Mr. Bierman. I would also say that these countries are 
asking for our help in terms of building their democracy and 
transparency. They are actually coming to us and asking for 
assistance with transparent elections.
    Mr. Rohrabacher. That's true. Yes.
    Mr. Bierman. And I would also just add that this is a 
matter of sharing a perspective rather than dictating a policy.
    Mr. Rohrabacher. Somewhere between Uzbekistan and Hungary 
there is a--you know, one is basically a very sophisticated 
country--Hungary and Poland and those countries--versus 
Uzbekistan and Tajikistan, which are really developing 
countries.
    So there's a line somewhere there for the point that you 
made of where it becomes interference and where they're 
actually asking for help and where they're helping and in terms 
of values and such, especially disturbing is the fact that 
we've had so much corruption in various countries that we've 
helped.
    I mean, Ukraine, we've spent $1 billion in Ukraine, I 
guess, in the last couple years and everybody acknowledges the 
level of corruption there is just dramatic.
    Mr. Bierman. I would just add that we've seen more movement 
to defeat corruption in the last 4 years than we've seen in the 
last 20 years. They've just stood up a high level anti-
corruption court and USAID is helping them stand up that court.
    We've seen a number of programs that help create 
transparency with our ProZorro program. I visited the East 
where we actually have created these service centers where 
people can come in and receive valuable services from their 
local governments that helps them be more proactive and more 
responsive.
    Mr. Rohrabacher. Well, I will say that at that level I hope 
that they are having--experiencing less corruption. But from 
what I've been told personally by various groups from Ukraine 
that at the highest level corruption is worse than it's ever 
been and that's--I can't verify that but that's what political 
groups from that country--whereas we are the committee that 
oversees our relations with Ukraine--they come to us and they 
talk to us.
    With one last point, let us just note that sometimes when 
you have certain amount of money you're going to spend and now 
we have to be much more cautious with it, spending the money 
doesn't necessarily bring about the right end.
    I remember, like, one of the things when I first got here 
was the Clinton administration's insistence on spending what 
was the equivalent of $50 million providing fuel for North 
Korea, and it had just the opposite impact.
    I mean, the North Koreans thought we were fools for doing 
that and did not make peace more likely. It made it less 
likely, and this President, with all of his abrasiveness and 
all of the way that he gets people angry at him, calling the 
guy ``Rocket Man'' and things like that, we have made 
tremendous strides forward at least getting the dialogue going 
to see if we can improve our relations as compared to what that 
$50 million got us, which was a retrenchment of tyranny and 
threat from North Korea.
    So with that said, one last point and then Brad, you can 
take over. And Brad loves to refute me but that's okay--you can 
do that.
    I think that this administration--I think what's 
fascinating--I want to go on the record on this, fellas, and 
that is we have left more career Foreign Services officers in 
charge of the State Department than any other administration 
that I've been through in the last 30 years.
    So we've actually got the pros like that are with us today. 
They're all pros, and with that said, that's one thing that you 
got to take into consideration.
    Thank you all very much and, Mr. Sherman.
    Mr. Sherman. On that last point, I have urged the prior 
Secretary of State and the current Secretary of State when they 
have good people who happen to be career, give them the 
permanent title.
    I believe we have at least one acting DAS here and as good 
as the people are, you can't do a good job until they tell you 
it's your job, and I remember the former Secretary of State 
saying well, yeah, we haven't filled all these positions 
because we've got great people filling them temporarily. 
Permanent is better.
    As to the issue of if a country is democratic we shouldn't 
criticise them, I think that we deal with both democracy and 
human rights, minority rights, the rule of law, and we need 
to--just because a country is elected does not mean it's 
respecting minority rights.
    That being said, I am concerned at the great popularity in 
the American press of any color revolution anywhere in 
Eurasia--we are running out of colors--when it's an attempt to 
displace a democratically-elected government, the U.S. press 
tends to focus on well, if people--if a majority of the people 
in the capital city who are English speaking and secular are 
against the government, then obviously it's undemocratic for 
that government to continue. And the fact is that many of these 
countries have people who don't live in the capital city and 
who don't speak English whose votes ought to be given equal 
weight.
    As to the anti-corruption effort, it's good to see that 
Ukraine has one. I would point out China has also had a huge 
anti-corruption effort, which is basically an attempt by 
President Xi to go after his enemies, and just because a 
country is doing a lot in anti-corruption does not mean it's 
primarily an anti-corruption campaign.
    I want to associate myself with the ranking member's 
statements and arguments that we should be spending more on 
foreign aid but point out that we should also be pushing Europe 
to do so as well.
    Now, as a percentage of GDP they spend more on foreign aid 
than we do. But we provide the security that they don't 
provide, as proven even in Europe where that could not be 
handled by European military. Kosovo and Bosnia was handled by 
the U.S. military.
    As part of our effort to point out that Europe should be 
spending more on its international obligations, we deliberately 
undercut that by understating the portion of our GDP that we 
spend on the military.
    We spend far more than 4 percent of our GDP and then we 
hide that from the American people by saying don't include our 
intelligence operations as part of what we spend on national 
defense and don't include VA benefits as part of what we spend 
on national defense.
    If any private company excluded from its expenses of 
product created the pensions that they are going to provide or 
obligated to provide or the pension benefits that they're going 
to provide their workers and they didn't list that as one of 
their expenses, their accountants would go to jail.
    So we should not be understating what we spend to fool the 
American people when that undercuts our efforts to get Europe 
to spend more.
    I heard a number of the witnesses talk about trade 
facilitation and the good of expanding trade. Often, U.S. 
companies will come to you and say, go spend money on this--
it's trade facilitation and it's supply network improvement.
    What they're really saying is go spend money so that we can 
ship jobs overseas and our offshoring will be effective. Is 
there any regulation at USAID that says that you have to look 
as to whether a particular project will facilitate offshoring 
of American jobs?
    Mr. Bierman. I can't answer that but I am happy to get back 
to you with it.
    Mr. Sherman. Okay. So this is a program--let's put it 
this--it's not a regular--you're the one running the program 
and you're not of any--you don't, at least knowingly, carry out 
a policy preventing your program to lead to offshoring of jobs?
    Mr. Bierman. Oh, absolutely. In fact, I was just going to 
mention----
    Mr. Sherman. But, I mean, it's on your checklist. If a 
project comes in and the effect is to allow shoes that are made 
in the United States to be efficiently made in some other 
country you don't fund the program?
    Mr. Bierman. There is no regulation.
    Mr. Sherman. There is no regulation. Is it a policy of 
yours? So it's not a--you do not have a policy against funding 
shipping American jobs overseas?
    If a project is going to lead to shutting down an American 
factory, you don't have a policy that says that's a bad idea?
    Mr. Bierman. No. In fact, I would just say that we are 
actually exploiting opportunities for American businesses 
overseas through our programs. We are seeing the opposite.
    Mr. Sherman. Okay. When an American business wants you to 
help exploit the opportunity to close down an American factory 
and make more money by producing the product overseas, what do 
you do?
    Mr. Bierman. Well, first off, let me just--let me give you 
a prime example where we are working with a rural company in 
rural Oklahoma where we've actually seen an increase in 
working----
    Mr. Sherman. I know there are going to be times when your 
projects lead to increased American employment.
    I am asking you a specific question. Do your policies and 
procedures--so when we fund your agency we may very well on 
occasion be funding a program that makes profits for a great 
American company by shutting down an American factory and 
facilitating--and doing trade facilitation that helps ship 
those jobs overseas?
    Mr. Bierman. As far as I am concerned, everything that we 
are doing is actually a benefit of both American----
    Mr. Sherman. But you don't ever--in looking at a project 
you don't have on your checklist, does this lead to shutting 
down an American factory?
    Mr. Bierman. I can't give you an example where that has 
been the case.
    Mr. Sherman. Well, on the one hand--yeah, but you're not--
okay.
    So you would need legislation--we'd have to tell you 
through legislation not--you know, to notice whether it leads 
to shutting down an American factory?
    I will ask one of the other witnesses. Are you aware of any 
State Department policy that says that we are not in favor of 
trade facilitation projects that increase American corporate 
profits but decrease American jobs?
    Ms. Wynne. I am not aware of any such stated policy, sir. I 
think the goal of----
    Mr. Sherman. Well, shouldn't we have one? I mean, you're 
asking us to go back--we've got this debate between the 
chairman and the ranking member--you're asking us to go back to 
our districts and say spend money on aid and you don't happen 
to notice whether you're funding something that's going to shut 
down American jobs?
    Mr. Bierman. I would say it's just the opposite.
    Mr. Sherman. But do you have it as part of your--I know 
that you can point to examples where perchance it worked out 
well. But do you have a written policy against funding a 
project that you might not--that would displace American jobs?
    Ms. Wynne. When we fund particular projects or particular 
sectors, sir, we are not looking at the interests of one 
particular or specific company.
    Our focus is on, typically, improving the environment 
overseas so that our firms can compete.
    Mr. Sherman. But are you noticing whether--while hoping 
that your project might increase jobs a--that a project might 
displace an American factory? Close it down?
    Ms. Wynne. No. I think what Mr. Bierman is trying to say we 
are in fact noticing the opposite. Our projects are actually 
doing the opposite.
    Mr. Sherman. I know--do you have--let's say you get 10 
projects and nine of them increase American jobs and you come 
here and brag about that.
    Would you happen to notice that maybe the tenth project led 
to shutting down an American factory? Do you have a rule 
against funding that tenth project--the one that would shut 
down?
    I know--other than coming here and bragging about the nine 
that increased, do you have a policy against funding the 
project that would lead to closing an American factory?
    Ms. Wynne. I don't know.
    Mr. Sherman. Nothing you can point to?
    Mr. Bierman. Hypothetical, but we've never----
    Mr. Sherman. Well, you don't look for it. If it's not part 
of your job to notice whether you're going to shut down an 
American factory, I don't expect the foreign government to send 
you a memo at their expense saying, don't fund this project in 
our country because it moves jobs from America to Uzbekistan.
    It's not Uzbekistan's job to protect American jobs, and you 
won't know what you're doing if you don't look and you don't 
have it on your written checklist to look.
    So I hope that when you come back next year you will say 
yes, we've got a 17-point or 170 points that we look at when we 
fund a project and one of them is we are not shutting down an 
American factory.
    So come back next year and show it to me. It may be number 
169 on the list. But don't tell me to go back to my district 
and agree with Mr. Meeks and disagree with Mr. Rohrabacher and 
try to provide more funds for your agency if you won't include 
this as one of your 170 top concerns.
    Now let me go to things far less controversial, although I 
have gone on pretty long.
    Mr. Meeks. Yes, you have.
    Mr. Sherman. I am closing in on the amount done by the 
chairman. I will sneak in one question if you will let me.
    Mr. Rohrabacher. The answer is yes. But I want to note that 
the way I handle this as chairman I usually let people finish 
their train of thought and you go right ahead.
    Mr. Sherman. Okay.
    Mr. Rohrabacher. Just as long as when you're the chairman I 
am going to get that same type of treatment. [Laughter.]
    Mr. Sherman. Yes. Yes. Yes. You're right. Usually the 
chairman gets a little bit more.
    Mr. Bierman, we've talked here about saving lives. One of 
your programs that does save lives is the de-mining effort in 
Artsakh. What are your views on expanding this critical 
investment in peace by finalizing the HALO Trust's mine 
clearance funding?
    Mr. Bierman. Well, first off, thank you for that question, 
Congressman.
    Let me just say for the record we've spent $43 million in 
humanitarian assistance for victims of Nagorno-Karabakh over 
the last--well, since 1998--over the last 20 years.
    We are right now at about 97.6 percent completed the 
mission of de-mining in that particular area and more than a 
125,000 people have benefited from the de-mining.
    This has saved lives and prevents injuries and generates 
local jobs. So we continue to support that.
    We will continue to look at humanitarian assistance in that 
particular region as it--as it arises.
    Mr. Sherman. In a QFR I am going to be asking you to urge 
the Department of Treasury to conclude a tax treaty with 
Armenia that will help achieve your goals and actually make 
money for the IRS rather than cost money, which everything else 
does.
    And I will yield back.
    Mr. Bierman. And I would just--one last additional point 
would be that I have met with the Armenian diaspora and we have 
made a point of reaching out to them and talking about 
partnerships and benefiting not only Armenia but the region.
    Mr. Sherman. Thank you.
    Mr. Rohrabacher. We have exactly 5 minutes before the next 
vote is called. So as a matter of self-interest as well as 
courtesy, I am going to have Mr. Meeks say his closing remarks 
and then I will close the hearing.
    Mr. Meeks. And I will be brief.
    I just want to thank the four of you for your service and 
dedication to our great country and to everybody that works in 
the State Department and USAID.
    I've got to tell you, when I travel on this committee and I 
go almost any place in the world, first, you know, many times I 
go and I see our military, our young women and men that's in 
our United States military, I am so proud of them and what they 
do and what they stand for and how they do their jobs on an 
everyday basis. And I've got to tell you I am as equally proud 
of the women and men in the State Department and at USAID.
    I see them working tirelessly on behalf of our country, 
working together to make sure that we have a better world. They 
are dedicated to this great country of ours and for a better 
world, and I want to make sure that they know that they are 
truly appreciated by members of the United States Congress.
    So thank you and thank them for their service.
    Mr. Rohrabacher. Good summary, wasn't it. That was 
terrific.
    All right. Well, let's just know that almost every Member 
of Congress that I know agrees with that assessment.
    We may be--come across as being too much having green 
eyeshades and giving people problems over specifics and trying 
to make do with the budget that we've got without leaving all 
of this legacy of debt to our grandchildren.
    But we know that you're the--you know, they're the front 
line and you're the one who are putting out all the work and 
policy. Dictating policy is a lot harder than carrying it out 
most of the time. So we do appreciate that.
    Let me just note that I think that we do--there are some 
fundamental differences that separate us and I will have to say 
that some I don't believe and that we should be in other 
countries pushing them on policies and philosophies that are, 
yes, consistent with our values but if it's a democratically-
elected government they can get those values and they can get 
those decisions from their own people rather than from people 
who have a culture, like we have in California--totally 
different culture than what's going on in some of the countries 
like Uzbekistan or Tajikistan or wherever.
    They have a totally different culture than we do, and for 
us to be pushing--and even in Hungary, even when we push--so we 
are pushing for people to accept as part of our NGO program to 
do this--that, I think, is not only a waste of money but it 
will create antagonism for us.
    Helping out to make sure that we help the walnut farmers in 
Uzbekistan and if we do I think that we can--probably they will 
be grateful to us for doing that rather than telling us what--
rather than saying okay, we will agree to your position on gay 
marriage, okay, and I am just saying that's the type of thing 
that we should not be pushing as U.S. policy but respecting 
their culture in that way.
    Otherwise, I think they're going to end up disliking us the 
same way that people dislike Russia, especially during the 
Soviet era, when they came in and tried to perpetuate their 
socialist values on everybody.
    So with that said, I am optimistic and I think we are in 
line for a better world. I think that technology--your jobs are 
going to be easier now because technology and especially 
communications technology that we are able now to have an 
influence in another country and, for example, I am on the 
Science Committee and there's a company, Virgin Galactic, 
that's just getting into what you call suborbital space.
    Well, that means we will be able to go to Kazakhstan or 
Uzbekistan in an hour from here. Ten years from now that will 
be--there will an airline doing that and Virgin Galactic will 
be offering that service.
    This is going to be a--have a tremendous impact on the 
world and I hope that it will be a positive influence, and we 
do owe people mine clearing and I was very happy that that was 
brought up because we have--in our history we have done things 
to preserve our own security that we need to detail--we need to 
focus on.
    Mine clearing is one of them. People in Laos, people in 
Vietnam--they still have kids who are going out and they are 
being--you know, their legs are blown off or their hands are 
being blown off.
    We need to--to me, that is the most justified of all 
expenditures of foreign aid because we are rectifying something 
we created ourselves.
    And with that said, just--and just improving their economy 
with walnuts I don't think is enough. But making sure that we 
help correct--for example, we need to work with people on 
banking systems that are transparent.
    I mean, the corruption that I noted in Ukraine, that's all 
over the place. What you have got is a--bankers are now quite 
often just accomplices to public officials who were looting 
their own countries and that's not right.
    And we can--that's one type of a project that would cost a 
lot of money for us--a lot of time and expertise to try to help 
people develop banking systems that will protect their own 
people from that kind of looting.
    Those are the type of projects that I think we need more of 
and less of the more traditional things that USAID has been 
doing for the last 50 years. Maybe we are in a new phase, and I 
think we are, and we are depending on you to get the job done.
    And thank you for your guidance as we are trying to make 
the policies of this new phase.
    So with that said, this subcommittee is adjourned.
    [Whereupon, at 3:34 p.m., the committee was adjourned.]

                            A P P E N D I X

 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
